    OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




   ANP Compound at Kandahar Generally Met Contract
     Terms but Has Project Planning, Oversight, and
                 Sustainability Issues




                                   July 22, 2010




SIGAR Audit-10-12 Contractor Performance and Oversight
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


July 22, 2010

Lieutenant General John R. Allen
Acting Commander, U.S. Central Command

General David Petraeus
Commander, U.S. Forces-Afghanistan, and
 Commander, International Security Assistance Force

Lieutenant General Robert L. Van Antwerp
U.S. Army Chief of Engineers and
 Commanding General of the U.S. Army Corps of Engineers

Lieutenant General William B. Caldwell, IV
Commanding General, NATO Training Mission-Afghanistan/
 Combined Security Transition Command-Afghanistan

This report discusses the results of a performance audit of a contract and three task orders funded by
the Combined Security Transition Command-Afghanistan and implemented by the U.S. Army Corps of
Engineers (USACE) to complete four co-located projects referred to as the Joint Regional Afghan Security
Forces Compound (JRAC). This report includes one recommendation to enhance compliance with
USACE quality assurance and control procedures and two recommendations to improve guidance on
implementing austere construction standards that will increase the likelihood that the Afghans will be
able to maintain facilities, such as JRAC, without assistance from the United States.

A summary of this report is on page ii. This performance audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181
and the Inspector General Act of 1978, as amended. When preparing the final report, we considered
comments from the Combined Security Transition Command-Afghanistan and the U.S. Army Corps of
Engineers. Both concurred with the report’s recommendations. These comments are reproduced in
appendices II and III, respectively.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
 for Afghanistan Reconstruction




SIGAR Audit-10-12 Contractor Performance and Oversight                                            Page i
                                                                     SIGAR Audit-10-12                                           July 2010


                   SIGAR
                                                 Special inspector General for Afghanistan Reconstruction

                                                                     ANP Compound at Kandahar Generally Met
               .                                                     Contract Terms but Has Project Planning,
   Special Inspector General for Afghanistan Reconstruction          Oversight, and Sustainability Issues
 What SIGAR Reviewed
 One objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security by
 housing, training, and equipping up to 134,000 Afghanistan National Police (ANP) by October 2011. The Combined Security
 Transition Command-Afghanistan (CSTC-A) provided $45 million to the U.S. Army Corps of Engineers (USACE) to fund a
 firm fixed-price contract and three firm fixed-price task orders to construct a compound consisting of a regional logistics
 center, a National Civil Order Police battalion, a Uniform Police regional headquarters, and a Border Police command
 center. Referred to as the Joint Regional Afghanistan Security Forces Compound (JRAC), the compound is located outside
 the Kandahar Airfield in Kandahar Province. USACE’s Afghanistan Engineer District (AED)-South has primary oversight
 responsibilities for construction activities. This report addresses the contract’s and each task order’s cost, outcome, and
 oversight; and the sustainment of JRAC. To accomplish these objectives, SIGAR reviewed relevant contract documents such
 as statements of work, contract modifications, and quality assurance and quality control records in light of applicable
 criteria described in the Federal Acquisition Regulation and USACE quality assurance guidance. SIGAR interviewed officials
 from CSTC-A, AED-South, AED-North, and performed a site inspection in November 2009 and follow-up fieldwork in March
 2010. SIGAR conducted work in Kabul and Kandahar, Afghanistan, from October 2009 to July 2010 in accordance with
 generally accepted government auditing standards.

 What SIGAR Found
 Three of the four JRAC projects experienced delays ranging from 6 to 12 months. The fourth project was delayed 2 years
 due in part to a land dispute between CSTC-A and the U.S. Drug Enforcement Administration that led to its re-location at
 the JRAC site. In addition to nearly $280,000 in USACE expenses related to the project’s re-location, the prime contractor
 has filed a request for equitable adjustment for $665,000 in additional costs. AED-South noted that all four JRAC projects
 are scheduled to be turned over to Afghan authorities by the end of July 2010. SIGAR’s inspection of completed work
 revealed no apparent construction issues.
 Inadequate project planning and oversight affected all four projects. USACE staff did not prepare a master plan for JRAC
 that fully integrated the four projects. As a result, JRAC had some redundant power, water, and sewer systems and varying
 heating and cooling systems. In addition, an armory for one project was constructed adjacent to a barracks for another
 project. In terms of project oversight, AED-South did not fully adhere to USACE quality assurance procedures, which raises
 the risk that non-visible construction problems could decrease the useful life of the project, increase operations and
 maintenance (O&M) costs, and possibly compromise occupant safety. SIGAR found that AED-South and the four prime
 contractors did not adequately document the results of site inspections, whether required quality assurance and control
 testing had taken place, or whether mandatory three-phase inspections occurred.
 CSTC-A officials stated that the government of Afghanistan does not have the financial or technical capacity to sustain
 Afghanistan National Security Forces (ANSF) facilities in the near term once they are completed. To address sustainment,
 USACE intends to award two, 5-year contracts for operation and maintenance of the ANSF facilities throughout Afghanistan
 at an estimated cost of $800 million. These contracts include provisions for developing ANSF’s sustainment capabilities.
 Finally, SIGAR noted that CSTC-A guidelines on “austere” construction standards do not include several items that could
 help promote the long-term sustainability of U.S.-constructed facilities such as JRAC, including further details on heating
 and cooling options and electrical and plumbing fixtures.

 What SIGAR Recommends
 SIGAR is making one recommendation to enhance compliance with USACE’s quality assurance and control procedures and
 two recommendations to increase the likelihood that the Afghans will be able to sustain the facilities without assistance
              ` States. (1) SIGAR recommends that the Commanding General, USACE, direct AED-South to ensure that
 from the United
 future projects adhere to USACE quality assurance and quality control procedures. (2) SIGAR recommends that the
 Commanding General, CSTC-A, update current austere construction guidance to include more detailed instructions
 regarding heating and cooling systems. (3) SIGAR further recommends that the Commanding General, CSTC-A, provide
                                                              i electical, plumbing, and other fixtures for facilities. In
 additional austere construction guidance regarding appropriate
 commenting on a draft of this report, USACE and CSTC-A concurred with the recommendations.
                               For more information contact: SIGAR Public affairs at (703) 602-8742 or PublicAffairs@sigar.mil



SIGAR Audit-10-12 Contractor Performance and Oversight                                                                               Page ii
TABLE OF CONTENTS

Background                                                                              2
JRAC Experienced Construction Delays but No Apparent Construction
  Quality Issues                                                                        5
A Master Plan Was Not Prepared and Project Oversight Did Not
  Comply with USACE Standards                                                          13
JRAC Is Not Sustainable Without Continued U.S. Assistance                              18
Conclusion                                                                             20
Recommendations                                                                        20
Comments                                                                               21
Appendix I: Scope and Methodology                                                      22
Appendix II: Comments from the Combined Security Transition Command-Afghanistan        24
Appendix III: Comments from the U.S. Army Corps of Engineers                           28


TABLES

Table 1:   JRAC Project Descriptions                                                    4
Table 2:   JRAC Project Completion Dates and Award Amounts                              5
Table 3:   Modifications to Contract W917PM-06-C-0007                                   6
Table 4:   Modifications to Task Order W917PM-07-D-0017 0001                            8
Table 5:   Modifications to Task Order W917PM-07-D-0017 0003                           10
Table 6:   Modifications to Task Order W917PM-07-D-00015 0006                          12
Table 7:   Description of the Three-Phase Inspection Process                           17
Table 8:   Documented Preparatory and Initial Inspections                              18

FIGURES AND PHOTOS

Figure 1: Location of JRAC                                                              3

Photo 1:   Interior View of the RLC Warehouse                                           7
Photo 2:   RLC Kitchen Stove and Exhaust Fan                                            7
Photo 3:   Completed ANCOP Barracks                                                     9
Photo 4:   ANCOP Power Plant Generators                                                 9
Photo 5:   UP Dining Facility                                                          11
Photo 6:   UP Administrative Buildings                                                 11
Photo 7:   Construction Outside BP Barracks                                            13




SIGAR Audit-10-12 Contractor Performance and Oversight                            Page iii
ACRONYMS
AED-North/South               Afghanistan Engineer District-North/South
ANCOP                         Afghanistan National Civil Order Police
ANP                           Afghanistan National Police
ANSF                          Afghanistan National Security Forces
BP                            Border Police
CSTC-A                        Combined Security Transition Command-Afghanistan
DFOW                          Definable Feature of Work
DLQAP                         District Level Quality Assurance Plan
JRAC                          Joint Regional Afghanistan National Security Forces Compound
O&M                           Operations and Maintenance
RLC                           Regional Logistics Center
SIGAR                         Special Inspector General for Afghanistan Reconstruction
UP                            Uniformed Police
USACE                         U.S. Army Corps of Engineers




SIGAR Audit-10-12 Contractor Performance and Oversight                                       Page iv
            ANP Compound at Kandahar Generally Met Contract Terms but
              Has Project Planning, Oversight, and Sustainability Issues

One objective of coalition efforts in Afghanistan is to ensure the successful design and construction of
facilities supporting the fielding of Afghanistan National Police (ANP) forces throughout Afghanistan. 1
From a reported size of 95,000 personnel in December 2009, the ANP is expected to rise to 134,000
personnel by October 2011. To meet the infrastructure needs of this growing force, the Combined
Security Transition Command-Afghanistan (CSTC-A) has helped fund a country-wide building program to
support the national, regional, and district-level operations of the ANP. 2 CSTC-A relies extensively on
the U.S. Army Corps of Engineers (USACE) to provide contract award and monitoring services through its
two district offices: Afghanistan Engineer District (AED)-South, 3 based in Kandahar, and AED-North,
based in Kabul.

Funded at a total cost of approximately $45 million by CSTC-A and built under the direction of USACE,
the Joint Regional Afghanistan Security Forces Compound (JRAC) encompasses four separate ANP
projects: a Regional Logistics Center (RLC), an Afghanistan National Civil Order Police’s (ANCOP)
battalion, the Uniform Police’s (UP) regional headquarters, and the Border Police’s (BP) zone
command. 4 USACE awarded a firm fixed-price contract 5 for the RLC project and firm fixed-price task
orders for construction of the ANCOP, UP, and BP projects. 6

1
 Under the Afghan Ministry of the Interior, the ANP consists of the Afghan Uniformed Police, Afghan National Civil
Order Police, Afghan Border Police, the Counternarcotics Police of Afghanistan, and additional specialized police
with responsibilities that include criminal investigation, counterterrorism, and customs.
2
 The NATO Training Mission-Afghanistan and CSTC-A is a joint command under a single commander. However,
because CSTC-A distributes and manages all U.S.-provided funding to support ANSF, this report refers to CSTC-A.
3
  AED-South was created in August 2009, in response to a growing workload that could not be managed by AED’s
single district office in Afghanistan. Due to the timing of the split, project oversight for the JRAC project has
involved both AED-South and AED-North personnel.
4
 In September 2009, AED-North awarded a contract to Technologists, Inc., to construct a regional office building
for the Ministry of Interior on land within the compound. At the time we completed our fieldwork in March 2010,
only site preparation activities had been initiated. For the purpose of this report, we limited analysis to the four
projects originally designated for inclusion in the compound.
5
 Firm fixed-price contracts and task orders provide for a price that is not subject to any adjustment on the basis of
the contractor’s cost experience in performing the contract. This contract type places upon the contractor
maximum risk and full responsibility for all costs and resulting profit or loss.
6
 These task orders were awarded under two indefinite delivery/indefinite quantity contracts managed by USACE.
An indefinite delivery/indefinite quantity contract may be used when the government cannot predetermine, above
a specified minimum, the precise quantities of supplies or services that the government will require during a fixed
contract period, and it is inadvisable for the government to commit itself to more than a minimum quantity.




SIGAR Audit-10-12 Contractor Performance and Oversight                                                        Page 1
This report is one in a series of Special Inspector General for Afghanistan Reconstruction (SIGAR)
performance audits that examine contract outcomes, costs, 7 and oversight. This report addresses
(1) whether the JRAC was constructed within the terms of the contracts, including schedule and cost;
(2) whether USACE oversight of construction was conducted in accordance with the Federal Acquisition
Regulation (FAR), USACE requirements, and oversight provisions of the contract; and (3) what plans are
in place to sustain these facilities once they are turned over to the Afghan government.

To accomplish these objectives, we reviewed relevant contract and task order files, including statements
of work, modifications, and quality assurance/quality control records. We examined criteria and
guidance in the FAR and the AED-South’s District-Level Quality Assurance Plan (DLQAP) dated August 3,
2009. 8 We interviewed officials from CSTC-A, AED-South, and AED-North, and conducted a full site
inspection of the compound on November 5, 2009, and follow-up fieldwork in Kandahar in March 2010,
including a drive through review of construction progress. We conducted our work in Kabul and
Kandahar, Afghanistan, from October 2009 to July 2010 in accordance with generally accepted
government auditing standards. Appendix I presents a more detailed discussion of our scope and
methodology.


BACKGROUND

Located in a walled facility outside the Kandahar Airfield, which is used by the United States and
coalition forces, the compound is expected to support about 1,150 police personnel. Construction
started in May 2008 and all four JRAC projects are expected to be turned over to Afghan authorities by
the end of July 2010. See figure 1 for a map showing the location of JRAC.




7
    Throughout this report, we use “cost” to refer to the total funding CSTC-A provided for this compound.
8
 Although JRAC construction was initiated prior to the publication of this plan, the plan is modeled on the AED
plan that applied to JRAC construction activity before August 2009.




SIGAR Audit-10-12 Contractor Performance and Oversight                                                       Page 2
Figure 1: Location of JRAC




Source: SIGAR. Inset from AED-South.




As shown in table 1, with the exception of RLC, which serves as a logistics center, each JRAC project
provides the same basic set of buildings and support services but for different elements of the ANP.




SIGAR Audit-10-12 Contractor Performance and Oversight                                             Page 3
Table 1: JRAC Project Descriptions
 Project                  Description
 RLC                      The RLC project includes a building to repair, service, and maintain vehicles
                          and other equipment and a warehouse to receive, store, and issue all
                          necessary supplies and equipment. Other project elements include
                          headquarters and administrative buildings, dining facilities, and
                          independent power, water, and sanitary systems. The facility can house
                          about 40 personnel.

    ANCOP                     This project includes construction of enlisted and senior officer barracks,
                              administration and training buildings, a dining facility, and power, water,
                              and sewer systems to be shared with the UP and BP facilities. The facility
                              can house about 325 personnel.

    UP                        This project includes construction of enlisted and senior officer barracks,
                              administation buildings, a dining facility, and logistics and maintenance
                              buildings. The facility can house about 210 personnel.

    BP                        This project includes construction of enlisted and senior officer barracks,
                              administation buildings, an armory, a dining facility, and training and
                              warehouse buildings. The facility can house about 575 personnel.

Source: SIGAR analysis of project documents.

Based in Kabul, a USACE ANP program manager with broad oversight responsibility for ANP projects and
a USACE project manager worked with CSTC-A staff to define JRAC project requirements. 9 One key
input for this process was a facilities development plan for the ANP prepared by a contractor working for
CSTC-A. 10 This plan linked the ANP’s operational needs to a comprehensive plan for facilities
development. A USACE contracting officer incorporated the project requirements into a scope of work,
issued the requests for proposals, and managed the selection process for each procurement. After
contract award, contract/task order modifications were overseen by an Administrative Contracting
Officer and Contracting Officers’ Representatives who approved modifications and payment invoices
based on their warrant authorities. 11 A Resident Engineer/Project Engineer and Quality Assurance
Representatives located in AED-South’s nearby Kandahar Area Office provided day-to-day project
oversight.




9
  The program manager and project manager continue to provide general project oversight and customer
interface.
10
  See ANP: ANSF Comprehensive Plan for Facilities Development, dated October 31, 2007, and, according to
CSTC-A officials, updated periodically since then.
11
  A Resident Engineer, Project Engineer, or Quality Assurance Representative can serve as a Contracting Officer’s
Representative if they receive the required training.




SIGAR Audit-10-12 Contractor Performance and Oversight                                                     Page 4
JRAC EXPERIENCED CONSTRUCTION DELAYS BUT NO APPARENT CONSTRUCTION QUALITY
ISSUES

The JRAC projects experienced significant construction delays compared to the original completion
dates due to a range of factors, including a land dispute and customs delays. The most significant delay
occurred on the RLC project, which was completed 2 years after its original completion date due, in part,
to a land dispute between CSTC-A and the U.S. Drug Enforcement Administration. CSTC-A’s project
costs increased for three of the four projects; however, these cost increases were attributable to USACE-
initiated scope changes. Table 2 shows the status of schedule and cost for JRAC’s four projects.

Table 2: JRAC Project Completion Dates and Award Amounts
 Project             Original Scheduled /Actual Original Award                 Current Award         Percentage
            Completion Date     Completion Date         Amount                       Amount           Completea
 RLC            Sept. 3, 2007       Oct. 22, 2009    $5.4 million                $6.4 millionc               97
                                           (act.)b
 ANCOP         Nov. 16, 2009       June 30, 2010    $15.2 million                $15.6 milliond                  99
                                             (act.)
 UP            Aug. 16, 2009       Mar. 28, 2010    $10.2 million                 $10.2 million                  100
                                             (act.)
 BP             July 29, 2009      July 15, 2010f   $13.7 million                $13.7 millione                  82
Source: SIGAR analysis of contract and task order modifications, notices to proceed, and Resident Management
System Reports dated March 8, 2010, and May 17, 2010.

Notes:
a
  Percentages are as of May 17, 2010.
b
  Project completed 2 months before an extended completion date of December 3, 2009.
c
  Original award amount increased by $1 million to provide additional life support services, de-mining and
topography services at a new construction site, and expected costs to cover a request for equitable adjustment
filed by the prime contractor for costs associated with a change in construction sites.
d
  Original award amount increased by $421,000 to add security perimeter lighting and changes related to site
drainage and sewage.
e
  Original award amount increased by $12,000 to add a road to the project.
f
  All four JRAC projects are planned for transfer to Afghan authorities by the end of July 2010.


RLC Project Costs Increased Due to Site Re-Location

According to USACE records, the project was completed in October 2009 or over 2 years after the
original completion date. The total projected cost to CSTC-A was $6.4 million or nearly $1 million higher
than the original contract amount of $5.4 million because of a land dispute that led to the project’s re-
location to JRAC. This re-location led to associated scope changes initiated by AED-South and a request
for equitable adjustment filed by the prime contractor. According to an AED-South document, as of May
17, 2010, the project was 99 percent complete and AED-South had made payments of more than
$5.5 million toward the total cost of the contract.

This competitively bid firm-fixed price contract was awarded May 27, 2006, to an Afghan construction
firm (Farham Construction) on a lowest-price basis with a notice-to-proceed date of June 10, 2006, and
an original scheduled completion date of September 3, 2007. Work initially started in 2006 at a site



SIGAR Audit-10-12 Contractor Performance and Oversight                                                    Page 5
located near the Kandahar Airfield; however, a land rights dispute with the U.S. Drug Enforcement
Administration led to RLC’s addition to JRAC in July 2008. 12

AED-South issued five contract modifications after May 2006 that raised total construction costs to
CSTC-A by more than $279,000. The modifications provided additional contractor housing at the outset
of the contract and adjusted the original scope of work to accommodate the re-location of the RLC
project to the JRAC site. In addition to these costs, the prime contractor has filed a request for equitable
adjustment for more than $665,000 as compensation for additional road work and utility modifications
required to adapt the RLC project to the JRAC site. These modifications were in addition to the required
modifications identified by USACE as summarized in table 3. CSTC-A and USACE officials noted that the
contractor’s request has been approved and should be paid once funds have been located.

Table 3: Modifications to Contract W917PM-06-C-0007
 Modification      Date Signed              Purpose                                  Cost/Schedule Change

     P0001           Aug. 22, 2006                   Provide additional life         Costs increased by more
                                                     support housing                 than $175,000

     P0002           May 3, 2007                     Change to appropriations        No change
                                                     data description

     P0003           Jan. 8, 2008                    Change to incorporate a         No change
                                                     Defense Federal
                                                     Acquisition Regulation
                                                     provision

     P0004           July 16, 2008                   Lift suspension of work         Costs increased by over
                                                     caused by land rights           $10,000 and extended
                                                     issue, extend completion        the scheduled completion
                                                     date, and increase              date to Dec. 12, 2009
                                                     number of required parts

     P0005           July 24, 2008                   Demine and provide              Costs increased nearly
                                                     topography services at          $94,000
                                                     the JRAC site

Source: SIGAR analysis of contract, modifications, notices to proceed, and Resident Management System reports.

Based on the criteria described in the contract’s statement of work and related technical specifications,
we made a visual inspection of the scope and completeness of site preparation and grading; the road
network, parking, and street lighting; water systems; sanitary systems; power station; general purpose
warehouse; vehicle maintenance building; vehicle refueling station; small arms maintenance building;

12
   Details on the nature and scope of the RLC land dispute case were not available because the case dates back to
2006 and the staff involved have left Afghanistan; the contract files we reviewed did not address the matter.
USACE officials noted that the dispute was likely caused by confusion over whether CSTC-A or USACE was
responsible for determining land rights before beginning construction. USACE officials noted that responsibility for
determining land rights was resolved in November 2009 when U.S. Forces-Afghanistan issued a Fragmentary Order
that made USACE responsible for verifying/confirming with the Afghan Ministry of Interior that appropriate land
rights are obtained prior to initiating construction activities.




SIGAR Audit-10-12 Contractor Performance and Oversight                                                      Page 6
and ammunition supply point. We found no indications of poor construction or non-conformance with
the statement of work and related technical specifications. Photos 1 and 2 provide examples of
completed RLC construction.

Photo 1: Interior View of the RLC Warehouse




Source: SIGAR, November 5, 2009.


Photo 2: RLC Kitchen Stove and Exhaust Fan




Source: SIGAR, November 5, 2009.




SIGAR Audit-10-12 Contractor Performance and Oversight                                      Page 7
ANCOP Project Is Behind Schedule

According to USACE officials, the ANCOP project was completed on June 30, or over 7 months past its
original completion date at a total cost to CSTC-A of $15.6 million—nearly $421,000 higher than the
original task order amount due to work scope changes initiated by AED-South. This competitively bid
task order was awarded on April 27, 2008, to a Turkish construction firm (Metag Construction) on a
lowest-price basis with a notice-to-proceed date of May 25, 2008, and an original completion date of
November 16, 2009. According to an AED-South document, as of May 17, 2010, AED-South had made
payments of more than $15.4 million toward the cost of the task order.

The project’s original contract price was $15.2 million. AED-South issued three task order modifications
that raised total construction costs by nearly $421,000 to pay for additional work outside the scope of
the original task order and moved the completion date to March 1, 2010. Table 4 shows the
modifications to the task order.

Table 4: Modifications to Task Order W917PM-07-D-0017 0001
 Modification              Date Signed           Purpose                            Cost/Schedule Change

 1A                           June 25, 2009              Road and perimeter         No change
                                                         wall modifications

 02                           Nov. 9, 2009               Add security perimeter     Costs increased by
                                                         lighting                   nearly $337,000

 P00003                       Jan. 3, 2010               Change site drainage       Costs increased by
                                                         and sewage                 $84,000 and
                                                                                    completion date
                                                                                    extended to Mar. 1,
                                                                                    2010

Source: SIGAR analysis of contract, modifications, notices to proceed, and Resident Management System reports.

Based on the criteria described in the contract’s statement of work and related technical specifications,
we made a visual inspection of the site’s preparation, water system, sewer treatment plant, electric
power plant, fuel tanks, electric distribution system, trash point, and road network and parking. We
found no indications of poor construction or non-conformance with the statement of work and related
technical specifications. Photo 3 shows a completed ANCOP barracks; photo 4 shows the power plant
generators installed to support the ANCOP, UP, and BP projects.




SIGAR Audit-10-12 Contractor Performance and Oversight                                                   Page 8
Photo 3: Completed ANCOP Barracks




Source: SIGAR, November 5, 2009.


Photo 4: ANCOP Power Plant Generators




Source: SIGAR, November 5, 2009.




SIGAR Audit-10-12 Contractor Performance and Oversight   Page 9
UP Project Completed Behind Schedule

According to USACE officials, the UP project was completed on March 28, 2010, or 7 months after the
original completion date at a total cost to CSTC-A of $10.2 million. This competitively bid task order was
awarded on June 5, 2008, to a Turkish construction firm (Metag Construction) on a lowest-cost basis
with a notice to proceed date of August 21, 2008, and an original completion date of August 16, 2009.
According to an AED-South document, as of May 17, 2010, the project was 100 percent complete and
AED-South had made payments of more than $10.1 million toward the total cost of the task order.

AED-South issued two contract modifications that moved the scheduled completion date to March 1,
2010, but did not change the contract price. A task order modification was not filed to extend the
construction completion date to March 28. Table 5 summarizes the modifications to the task order.

Table 5: Modifications to Task Order W917PM-07-D-0017 0003
 Modification               Date Signed          Purpose                            Cost/Schedule Change

 1A                           Aug. 18, 2009              Change construction        Scheduled completion
                                                         completion date            date changed to Nov.
                                                                                    16, 2009

 2A                           Feb. 7, 2010               Change construction        Scheduled completion
                                                         completion date            date changed to Mar.
                                                                                    1, 2010

Source: SIGAR analysis of contract, modifications, notices to proceed, and Resident Management System reports.

Using the criteria described in the contract’s statement of work and related technical specifications, we
made a visual inspection of the booster pump house, sanitary system, electrical distribution system, re-
fueling point and fuel storage areas, dining facility and trash point, road network and parking, barracks
and shower/toilet facility/laundry room, small arms maintenance facility, and ammunitions supply point.
We found no indications of poor construction or non-conformance with the statement of work and
related technical specifications. Photos 5 and 6 provide examples of completed construction.




SIGAR Audit-10-12 Contractor Performance and Oversight                                                 Page 10
Photo 5: UP Dining Facility




Source: SIGAR, November 5, 2009.



Photo 6: UP Administrative Buildings




Source: SIGAR, November 5, 2009.




SIGAR Audit-10-12 Contractor Performance and Oversight   Page 11
BP Project Is Behind Schedule
According to USACE officials, the BP should be completed by July 26, 2010, or almost 1 year past the
original completion date. The total cost to CSTC-A for the project is $13.7 million, $12,000 higher than
the original task order due to work scope changes initiated by AED-South. This competitively bid task
order was awarded on May 29, 2008, to a U.S. construction firm (ICC International) on a lowest-cost
basis with a notice-to-proceed date of August 3, 2008, and an original completion date of July 29, 2009.
According to an AED-South document, as of May 17, 2010, the project was 82 percent complete and
AED-South had made payments of more than $11.7 million toward the total cost of the contract.

AED-South issued four contract modifications that raised total construction costs by $12,000 to pay for
additional work beyond the scope of the original task order and moved the scheduled completion date
to July 15, 2010. Table 6 summarizes the modifications to the contract.

Table 6: Modifications to Task Order W917PM-07-D-0015 0006
 Modification              Date Signed           Purpose                            Cost/Schedule Change

 1A                           Feb. 18, 2009              Add additional road        Costs increased by
                                                                                    $12,000

 2A                           Oct. 9, 2009               Change construction        Completion date
                                                         completion date            changed to Nov. 16,
                                                                                    2009


 3                            Jan. 24, 2010              Change construction        Completion date
                                                         completion date            changed to Mar. 1,
                                                                                    2010

 1E                           April 14, 2010             Change in construction     Completion date
                                                         completion date            changed to July 15,
                                                                                    2010

Source: SIGAR analysis of contract, modifications, notices to proceed, and Resident Management System reports.

Compared with other JRAC projects, the BP project was further behind due, in part, to problems getting
construction materials through Afghan customs that were not experienced by AED-South’s other
contractors. For example, AED-South officials stated that pre-fabricated building components were held
at the Pakistan border for 17 weeks due to the contractor’s unwillingness to pay bribes to Afghanistan
customs officials. USACE officials noted that they typically respond to such cases by appealing to both
CSTC-A and the U.S. Embassy in the hope that pressure from these sources will resolve the issue. As a
result of these and other delays, the BP project was not as far along as the other projects at the time of
our inspection. Based on the criteria described in the contract’s statement of work and related technical
specifications, we made a visual inspection of the partially completed buildings. We found no
indications of poor construction or non-conformance with the statement of work and related technical
specifications. Photo 7 shows construction progress at a BP barracks.




SIGAR Audit-10-12 Contractor Performance and Oversight                                                 Page 12
Photo 7: Construction Outside BP Barracks




Source: SIGAR, November 5, 2009.




A MASTER PLAN WAS NOT PREPARED AND PROJECT OVERSIGHT DID NOT COMPLY WITH
USACE STANDARDS

A master plan to integrate the four JRAC projects into a joint compound with shared power, water, and
sewer systems, or a common approach to meeting heating and cooling needs, was not developed. 13 In
the absence of such a plan, JRAC had some redundant power, water, and sewer systems; various heating
and cooling systems; and other construction issues. Although we found no visible construction
deficiencies, ineffective project oversight raises the risk that non-visible problems could exist. Although
project-specific quality assurance and quality control plans were developed, we found numerous
deficiencies with AED-South’s quality assurance reports and a general lack of documentation regarding
required quality assurance and control testing and three-phase inspections. 14 AED-South and AED-North
officials noted that these oversight deficiencies occurred during a time when staff resources in




13
  As noted earlier, a facility-level analysis of JRAC’s operational requirements along with a detailed site plan were
prepared by a CSTC-A contractor in October 2007 and updated through February 28, 2010. This analysis, however,
did not include a master plan that integrated the operations of four projects.
14
  The three-phase (preparatory, initial, and final) inspection process provides a means for ensuring that all
construction activities, including those involving subcontractors, suppliers, and testing laboratories, comply with
the latest applicable contract drawings, specifications, certified or approved submittals, and authorized changes to
the contract.




SIGAR Audit-10-12 Contractor Performance and Oversight                                                      Page 13
AED-South were particularly short and a hand-off of project oversight responsibilities occurred between
AED-North and AED-South. 15

A Master Plan to Integrate the Four Projects Was Not Developed

A master plan for a compound such as JRAC should include a comprehensive review of all four projects,
including the identification of possible efficiencies to be gained from project interdependence. These
efficiencies would include shared infrastructure such as water, sanitation, and power that benefit from
“economies of scale.” Planning would also identify the advantages of similar construction types and
building systems that would simplify operations and maintenance and provide lower life-cycle costs for
the facilities.

Due to the lack of a master plan, the RLC project was built with its own water, sanitation, and power
systems. 16 In addition, the compound includes multiple heating and cooling systems that are more
difficult to maintain and stock with replacement parts. For example, the RLC has unit heaters; ANCOP
has an evaporative cooling system; and UP will use wood burning stoves, ceiling fans, and self-contained
heating and cooling systems in various locations. The BP project is scheduled to have ceiling fans, unit
heaters, self-contained heating and cooling systems, and a forced-air, evaporative cooling system in its
dining facility. Finally, we noted that BP’s armory is adjacent to an ANCOP barracks. 17 AED-South
officials noted that a blast wall would need to be constructed to correct this oversight.

Quality Assurance and Quality Control Oversight Deficient in Several Respects

The implementation of USACE’s key quality assurance and quality control oversight requirements were
not properly documented, raising concerns that these steps were not adequately performed or were not
performed at all. AED-South and AED-North officials noted that these documentation and oversight
deficiencies occurred during a period of inadequate staffing levels and the creation of a new district-
level office.

USACE’s quality assurance system centers on the district-level quality assurance plan (DLQAP) for
construction that each of the Corps’ district offices prepares using a common model. AED-South issued
its DLQAP on August 3, 2009, to mark its creation as a separate district office. Prior to the creation of
AED-South, the plan developed by USACE’s district office in Kabul was in effect. Key oversight
requirements described in these plans include the need for (1) supplemental quality assurance and
quality control plans for each construction project prepared by USACE and contractor staff,

15
  AED-South was established as a separate district on August 3, 2009, in response to a growing workload that AED
headquarters in Kabul could not manage alone. This likely slowed construction progress because certain oversight
responsibilities and program files had to be transferred from AED-North to AED-South. AED-South staffing in
August 2009 was about 40 individuals compared with an authorized staffing of 299. Currently, AED-South has
approximately 235 staff, and USACE officials noted that contract management and oversight has improved as a
result.
16
  The ANCOP task order, however, required that this project provide for a common power, water, and sewer
system to support the UP and BP projects.
17
 Generally, an armory is a building where arms and military equipment is stored.




SIGAR Audit-10-12 Contractor Performance and Oversight                                                  Page 14
respectively; 18 (2) quality assurance and quality control reports that are typically prepared on a daily
basis by USACE and contractor staff; (3) quality assurance and quality control testing; and (4) three-
phase inspections conducted by contractor staff and overseen by USACE quality assurance staff to
ensure that each project’s definable features of work (DFOW) 19 meet all statement-of-work and
technical requirements. 20 Quality assurance reports, quality control reports, and USACE’s Resident
Management System database provide the key means for determining whether planned oversight
actions, as detailed in the supplemental quality assurance plans and quality control plans, were actually
carried out.

Supplemental Quality Assurance Plans Met Requirements but Did Not Provide Testing Details

The DLQAP notes that a unique quality assurance plan must be developed for every construction
project. These plans serve as “supplements” to the DLQAP and are referred to as supplemental quality
assurance plans. These plans should include information on (1) quality assurance staffing, (2) DFOWs,
(3) milestone dates for the project , and (4) quality assurance surveillance responsibilities and quality
assurance testing to include type and frequency. We reviewed the supplemental quality assurance
plans for each JRAC project and found that they met all DLQAP requirements with the exception that
they did not include details on the number and nature of planned quality assurance tests needed to
ensure that the contractor’s quality control testing was accurate and reliable. In the absence of testing
plans, AED-South lacked reasonable assurance that contractor-conducted quality control tests were
adequate.

Quality Control Plans Generally Adhered to Standards

We reviewed the quality control plan developed for each JRAC project and found that they generally
adhered to DLQAP standards. These plans should describe how the contractor will implement a quality
control system to guide construction activities throughout the life of the project. Their main purpose is
to ensure all construction activities comply with the requirements of the scope of work and technical
specifications. The DLQAP says that the USACE resident office must review and approve the quality
control plan before construction work is initiated. The plan should include (1) the contractor’s quality
control organization, (2) personnel listing, (3) details on the submittal process, (4) testing plan, (5) three-
phase inspection plan, (6) details on the construction and design deficiencies tracking system, (7)
reporting procedures, and (8) a list of DFOWs.




18
  The purpose of a quality assurance system and plans is to verify the effectiveness and accuracy of the
contractor's control over the quality of work required by the contract. The project engineer has the responsibility
for proper implementation of the quality assurance program, which ensures that the quality control system is
effectively serving this purpose.
19
   A DFOW is a task that is separate and distinct from other tasks and has separate control requirements. For
example, concrete slabs would require separate tasks for formwork, reinforcement, embedded items, placement,
finishing, and curing.
20
  Other elements of USACE’s quality assurance system include contractor work order submittals, contractor
invoice submissions, payment requests based on percentage of work completed, contractor performance
assessments, and a “lessons learned” tracking system.




SIGAR Audit-10-12 Contractor Performance and Oversight                                                     Page 15
Quality Assurance Reports Were Perfunctory and Lacked Detail

In our review of the quality assurance reports prepared for the RLC, ANCOP, UP, and BP projects (for the
8 weeks from April 15, 2009, to June 15, 2009), 21 only about 10 percent of these required data fields
were addressed, on average. As described in the DLQAP, USACE quality assurance representatives
should visit the construction sites as often as practical. Each visit must be documented with a quality
assurance report following a prescribed “checklist” format to ensure that a series of data fields are
addressed even if the answer is “not applicable.” Key data fields that should be addressed include the
contractor’s quality control activities, developments that may lead to a change order, disagreements
with the quality control report, progress of work and the cause/extent of delays, results of quality
assurance inspections and testing, and Quality Assurance Representative comments relating to specific
DFOWs.

Quality Control Reports Were Incomplete or Not Detailed

Compared with the quality assurance reports we reviewed, the quality control reports for all four JRAC
projects for the same 8-week period addressed substantially more required data fields. We found that,
on average, 60 percent of the required data fields (such as work performed each day, quality control
tests performed and results, and three-phase inspection activities conducted) were completed or were
listed as “not applicable.” This does not suggest, however, that completed fields always included
accurate information. For example, we noted that even basic information such as the recorded
temperature was not always consistent for quality assurance and quality control reports filed for the
same day.

Evidence of Quality Assurance and Control Testing Was Lacking

AED-South failed to adequately document the extent, nature, and results of required quality assurance
and quality control tests conducted for each of JRAC’s four projects. We found no specific references in
quality assurance reports that any quality assurance testing had taken place during the 8-week period
we reviewed. 22 Furthermore, we found that AED-South did not systematically capture information on
quality assurance tests; therefore, the option to review a related Resident Management System report
did not exist.

We found no specific references to quality control tests in the quality control reports filed for the 8-
week period we reviewed. Additionally, we received updated Resident Management System listings of
quality control tests conducted for each JRAC project; however, these March 9, 2010, data reports
showed quality control tests as “awaiting results,” or “not performed,” or “quality assurance verification
pending.” These reports also showed that the recorded number of quality control tests varied widely
among projects. For example, RLC recorded 44 quality control tests, ANCOP recorded 14, UP recorded
3, and BP recorded 193.




21
     We selected this time period because it was the mid-point of JRAC construction activities.
22
 We reviewed (1) a sample of quality assurance reports, (2) a sample of quality control reports, and (3) Resident
Management System reports, current through March 9, 2010.


SIGAR Audit-10-12 Contractor Performance and Oversight                                                    Page 16
Documentation of Three-Phase Inspections Lacking

AED-South did not document its three-phase inspections as required by the DLQAP. As described in the
DLQAP, the three-phase system provides a means for ensuring that all construction activities, including
those involving subcontractors, suppliers, and testing laboratories, comply with the latest applicable
contract drawings, specifications, certified or approved submittals, as well as authorized changes to the
contract. Table 7 provides a summary of each step in the three-phase inspection process.

Table 7: Description of the Three-Phase Inspection Process
 Phase                Description

 Preparatory            This phase is performed before beginning work on each feature of work. It
                        includes a review of contract requirements to ensure materials, sample panels,
                        and equipment conform to contract requirements, and so control testing,
                        including procedures, is finalized. This phase also includes an examination of
                        the new work area to verify that already completed work conforms to contract
                        requirements and that all required materials are already approved, on hand,
                        and properly stored. The Quality Assurance Representative should be notified
                        at least 48 hours in advance of each preparatory activity. Preparatory
                        inspections should be documented in the daily quality assurance report.

 Initial                This phase is performed at the beginning of each DFOW, once a representative
                        sample of work is completed. The initial phase provides a check of preliminary
                        work to ensure compliance with contract requirements. The initial phase
                        should be repeated for each new crew working on-site, or for any item that
                        does not meet acceptable specified quality standards. The Quality Assurance
                        Representative should be notified at least 48 hours in advance of each initial
                        activity.

 Follow-up              This phase is performed continuously, until the activity is completed, to verify
                        that control procedures provide a product in compliance with contract
                        requirements. Adjustments to procedures may be required based on the
                        findings and testing. The Quality Assurance Representative will perform spot
                        checks and enter the results into quality assurance reports.

Source: District Level Quality Assurance Plan, AED-South.

As described in table 8, we found no documented evidence of a preparatory inspection for at least 80
percent of the DFOWs we reviewed. With regard to initial inspections, we found no documented
evidence that an inspection had been conducted for at least 95 percent of all DFOW’s. We did not
analyze the third phase of the inspection process because DLQAP guidance notes that this phase should
be continuous and documented in quality assurance and quality control reports over long periods of
time. However, we noted that RMS data updated through March 9, 2010, showed the “number of final
follow-ups held” as zero for all DFOWs for all JRAC projects.




SIGAR Audit-10-12 Contractor Performance and Oversight                                              Page 17
Table 8: Documented Preparatory and Initial Inspections
 Project (Number of   Documented                  Documented Initial
 DFOWs)               Preparatory Inspections     Inspections

                           Number of Percentage          Number of        Percentage
                           Inspections of DFOWs          Inspections      of DFOWs

 RLC (61)                       12             20              2               3

 ANCOP (77)                     7              9               4               5

 UP (75)                        0              0               0               0

 BP (120)                       20             17              5               4

Source: SIGAR analysis of AED-South paper records and reports from the Resident Manager System.



JRAC IS NOT SUSTAINABLE WITHOUT CONTINUED U.S. ASSISTANCE

CSTC‐A officials stated that the government of Afghanistan does not have the financial or
technical capacity to sustain Afghanistan National Security Forces facilities once they are completed.
According to the AED program manager for operations and maintenance, two new operations and
maintenance contracts for ANSF facilities will be awarded by July 29, 2010. These contracts will
cover ANA and ANP facilities in northern and southern Afghanistan for up to $450 million and
$350 million, respectively. According to the program manager, these contracts will be for 1 base year
plus 4 optional years. These indefinite delivery/indefinite quantity contracts will have task
orders for operations and maintenance activities written against the contracts at specific locations.
According to the program manager for operations and maintenance, a total of 663 ANSF sites will be
covered over the life of these contracts. For those sites that are not completed, they will be added to
the contract with task orders as warranted.

According to the AED official program manager for operations and maintenance, the new contracts will
require a training program for Afghan workers in all aspects of operations and maintenance. The
program will be expanded with each additional year to include all regions in Afghanistan. According to
the program manager, CSTC‐A plans to transfer responsibility for all operations and maintenance for the
ANSF facilities to the government of Afghanistan by 2013. The contractor will train Afghans to support
these functions. The Ministry of Defense will begin taking responsibility in selected locations beginning
in 2010 with all locations phased in over time. The additional option years for the contracts are included
if all of the ANSF facilities are not turned over by 2013.

A key development that will influence the ability of ANP personnel to provide operations and
maintenance support without U.S. assistance is the country-wide move toward “austere” construction
standards for ANSF facilities as embodied in an August 16, 2009, memorandum issued by CSTC-A. 23
Examples of austere standards in the memo include plain concrete floors instead of tiled floors, metal
trusses and metal covering for roofs instead of structural steel trusses, surface-mounted interior

23
  JRAC construction was initiated before the standards were issued; however, efforts were made to incorporate
the standards into on-going construction.


SIGAR Audit-10-12 Contractor Performance and Oversight                                                 Page 18
electrical wiring to increase ease of access for repairs and upgrades, surface-mounted interior plumbing
to increase ease of access, dedicated areas for hand-washing laundry with clothes lines for drying, and
the use of ceiling fans and electrical heaters.

According to CSTC-A, these standards are an attempt to provide uniform guidance to help ensure the
long-term sustainability of U.S.-funded construction in Afghanistan. However, our analysis of related
documents and recommendations by AED-South staff indicated that current guidance could be
improved by including further details on heating and cooling options and other decisions relating to
electrical and plumbing fixtures. For example,

     •   Current guidance suggests that ceiling fans and electrical heaters should be used in enlisted
         soldiers barracks while combination heating/cooling units (commonly described as “split-packs”)
         should be used for flag officer and visiting officer quarters. The memo is silent or ambigious in
         regard to standard heating and cooling solutions for special cases such as dining facilities,
         communication units with sensitive equipment, and hospitals and clinics that may have unique
         requirements.

     •   Current guidance does not address other refinements such as whether fire-heated stoves are an
         approriate alternative, whether baseboard heating is more efficient than stand-alone electrical
         heaters, or whether ceiling fans provide sufficient cooling given regional variations in weather. 24

     •   Current guidance also does not address a number of issues relating to the use of fixtures such
         as:
             • Trough-style, metal wash basins rather than individual porcelain sinks.
             • Positive-stop faucets with non-moveable neck or rubber hose necks as opposed to
                 moveable- neck type faucets.
             • Externally mounted, solid-tube, short shower heads instead of flexible-neck systems
                 that can be easily torn off.
             • Chain and spring door closers instead of pneumatic door closers.
             • Elimination of window screens or the use of hinged or magnetic attachment screens to
                 prevent cutting of screens to throw out garbage or run television cables to antennas.
             • Improved and sturdier mounting of light fixtures to prevent abuse by Afghan police who
                 may hang items from them.




24
  For example, summer tempartures in Kandahar can exceed 120 degrees Fahrenheit while summer highs in Kabul
are generally 30 degrees lower.


SIGAR Audit-10-12 Contractor Performance and Oversight                                               Page 19
CONCLUSION

All four JRAC projects experienced delays. More important, however, was the lack of a master plan for
the compound, which contributed to redundant life support systems, different heating and cooling
solutions that will be more difficult to operate and maintain than a common system, and the
construction of an armory opposite a police barracks raising significant safety concerns if the building is
used for its intended purpose. Further, lax enforcement and documentation of key USACE quality
assurance and quality control requirements raise the risk that non-visible construction problems could
exist that may decrease the useful life of the project, increase long-term operations and maintenance
costs, and possibly compromise occupant safety.

With regard to future operations and maintenance costs, the United States has already committed to
pay an estimated $800 million to support all ANSF facilities over the next 5 years. These support
contracts include provisions for training Afghans to take over these responsibilities by 2013. The
adoption of more austere building standards would reduce operations and maintenance costs and
improve the chances that the Afghans will be able to assume full responsibility for operations and
maintenance sometime in the near future. CSTC-A’s current guidance on austere standards represents
an excellent start, but is incomplete and could be improved.

RECOMMENDATIONS

We are making three recommendations to enhance compliance with USACE’s quality assurance and
control procedures and increase the likelihood that the Afghans will be able to sustain the facilities
without assistance from the United States.

To help ensure that contractors deliver current and future construction projects in compliance with all
contract specifications, we recommend that the Commanding General, USACE:

    (1) direct AED-South to ensure that future projects adhere to USACE’s established quality assurance
        and quality control procedures.

To reduce operations and maintenance costs and improve the long-term sustainability of U.S.-funded
ANSF projects in Afghanistan, we recommend that the Commanding General, CSTC-A, in consultation
with AED-South, AED-North, and other applicable implementing partners:

    (2) review and update current guidance on austere construction standards to include more detailed
        guidance regarding heating and cooling options for various types of facilities, with the option to
        allow for appropriate regional differences.

Based on our review of CSTC-A’s austere construction guidance, we further recommend that the
Commanding General, CSTC-A:

    (3) include additional guidance regarding appropriate electrical, plumbing, and other fixtures for
        facilities.




SIGAR Audit-10-12 Contractor Performance and Oversight                                              Page 20
COMMENTS

 CSTC-A and USACE provided written comments on a draft of this report. These comments are
reproduced in appendices II and III, respectively. CSTC-A concurred with our two report
recommendations related to updating existing guidance on austere construction standards in
Afghanistan. USACE concurred with our recommendation that greater focus be placed on adhering to
established USACE quality assurance and quality control procedures. CSTC-A and USACE also provided
technical comments, which we incorporated into the report as appropriate.

Both CSTC-A and USACE commented on our observations on the construction of an armory next to a
barracks. CSTC-A indicated that the armory was constructed for “securing weapons and not
ammunition,” implying no safety concern. In contrast, USACE stated that they identified this concern
prior to our site inspection and that discussions are on-going with CSTC-A regarding the option of
installing 20-foot high concrete (“Alaskan type”) barriers between the two areas. We note that this
matter needs to be resolved soon because AED-South officials said the facilities will be transferred to
Afghan authorities by the end of July 2010.




SIGAR Audit-10-12 Contractor Performance and Oversight                                            Page 21
APPENDIX I: SCOPE AND METHODOLOGY


This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of a contract and three task orders funded by the Combined Security Transition
Command-Afghanistan (CSTC-A) and implemented by the U.S. Army Corps of Engineers (USACE) to
complete four co-located projects collectively referred to as the Joint Regional Afghanistan National
Security Forces Compound (JRAC). This report addresses (1) whether JRAC was constructed within the
terms of the contract, including schedule and cost; (2) whether USACE oversight of construction was
conducted in accordance with the Federal Acquisition Regulation (FAR), USACE requirements, and
oversight provisions of the contract; and (3) what plans are in place to sustain these facilities once they
are turned over to the Afghan government.

To examine project outcomes, including schedule and cost, we met with officials from CSTC-A and the
Afghanistan Engineer District (AED)-South and AED-North. We reviewed the final contract and task
order award documents including statements of work, notices to proceed, and modifications. We
conducted a site inspection of JRAC on November 5, 2009 and follow-up fieldwork in Kandahar in March
2010, including a drive through review of construction progress. We used computer-processed data
from the U.S. Army Corps of Engineers’ Resident Management System to determine the progress and
payments made to date for each contract we reviewed. In addition, the Resident Management System
provided information on issues and challenges for each contract. We verified information in the system
with hard-copy contract files.

To examine the contracting process, project oversight, and relevant internal controls, we met with
officials from CSTC-A, AED-South, and AED-North. We reviewed criteria and guidance in the FAR and the
AED-South District Level Quality Assurance Plan (DLQAP) for construction, dated August 3, 2009, to
determine if the contracting process and oversight of the contract met requirements. This August 2009
guidance replicates the district-level plan in place when USACE had only one district office in
Afghanistan. Additionally, we reviewed the AED guidance to determine the roles and responsibilities for
AED personnel. For each JRAC project, we reviewed the quality assurance and quality control plans and
compared them to DLQAP guidance for compliance with USACE standards. We reviewed related quality
assurance and quality control reports for an 8-week period (April 15 through June 15, 2009) for
adherence with standards. We selected this time period because it approximates the mid-point in JRAC
construction activities. Our reviews of quality assurance/quality control plans and quality
assurance/quality control reports were performed independently by two SIGAR engineers who
discussed and reconciled any assessment differences. Finally, we reviewed whether three-phase
inspections were conducted for each definable feature of work listed for each project.

To examine U.S. government efforts to transfer the project to the government of Afghanistan and
provide for its sustainment, we met with officials from CSTC-A, AED-North, and AED-South to determine
what sustainment plans the government of Afghanistan has in place and updated information provided
in earlier SIGAR reports relating to operations and maintenance contracts for Afghanistan National
Security Forces throughout the country.

This report is one in a series of SIGAR performance audits focused on reconstruction contract outcomes,
costs, and oversight. We conducted work in Kabul and Kandahar, Afghanistan, from October 2009 to
July 2010 in accordance with generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a


SIGAR Audit-10-12 Contractor Performance and Oversight                                             Page 22
reasonable basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. The audit was conducted by the Office of the Special Inspector General for Afghanistan
Reconstruction under the authority of Public Law No. 110-181, and the Inspector General Act of 1978, as
amended.




SIGAR Audit-10-12 Contractor Performance and Oversight                                         Page 23
APPENDIX II: COMMENTS FROM THE COMBINED SECURITY TRANSITION COMMAND-
AFGHANISTAN




SIGAR Audit-10-12 Contractor Performance and Oversight                 Page 24
SIGAR Audit-10-12 Contractor Performance and Oversight   Page 25
SIGAR Audit-10-12 Contractor Performance and Oversight   Page 26
SIGAR Audit-10-12 Contractor Performance and Oversight   Page 27
APPENDIX III: COMMENTS FROM THE U.S. ARMY CORPS OF ENGINEERS




SIGAR Audit-10-12 Contractor Performance and Oversight         Page 28
SIGAR Audit-10-12 Contractor Performance and Oversight   Page 29
                (This report was conducted under the audit project code SIGAR-08I).




SIGAR Audit-10-12 Contractor Performance and Oversight                                Page 30
_________________________________________________________________________________
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction is to enhance oversight of programs for the
                              reconstruction of Afghanistan by conducting independent and
                              objective audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction strategy
                                      and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR         To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies           SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                  reports, testimonies, and correspondence on its Web site.


To Report Fraud, Waste, and       To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan              allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs           reprisal contact SIGAR’s hotline:

                                      •   Web: www.sigar.mil/fraud
                                      •   Email: hotline@sigar.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-237-2575
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-604-0983



Public Affairs                    Public Affairs Officer
                                     • Phone: 703-602-8742
                                     • Email: PublicAffairs@sigar.mil
                                     • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202
